             September 27, 2004


             MEMORANDUM

             FOR:           Director, Middle East Affairs, Asia Near East Bureau,
                            David McCloud

             FROM:          Regional Inspector General/Cairo, David H. Pritchard /s/

             SUBJECT:       Survey of USAID’s Activities Funded Under the Middle East
                            Partnership Initiative (Report No. 6-298-04-002-S)

             This memorandum transmits our final report on the subject survey. In finalizing
             the report, we considered your comments on our draft report and have included
             them as Appendix I.

             We did not audit the activities or the data provided within this report. As a result
             this is not an audit report. This survey information forms the basis for the Office
             of Inspector General (OIG) audit strategy intended for fiscal year 2005.

             I appreciate the cooperation and courtesy extended to our staff throughout the
             survey.




Background   The Middle East Partnership Initiative (MEPI), a Presidential initiative, provides a
             framework and funding for working with the Arab world to expand educational
             and economic opportunities, empower women, and strengthen civil society and
             the rule of law.

             The Department of State structured MEPI into the following four pillar areas:

             •   Economic Pillar - MEPI policy and programs support region-wide economic
                 and employment growth driven by private sector expansion.
•   Political Pillar - MEPI supports an expanded public arena where democratic
    voices can be heard in the political process, the people have a choice in
    governance, and there is respect for the rule of law.
•   Education Pillar - MEPI supports education systems that enable all people to
    acquire the knowledge and skills necessary to compete in today's economy
    and improve the quality of their lives.
•   Women's Pillar - MEPI works toward economic, political, and educational
    systems where women enjoy full and equal opportunities.

The Department of State's Bureau of Near Eastern Affairs, Partnership Initiative
Office, manages the MEPI policy and programs, and works closely with agencies
across the U.S. Government including USAID.

The Department of State reviews USAID programs in the Middle East to ensure
that USAID mission programs support the four reform areas mentioned above.
The Department is responsible for defining the activity that MEPI appropriations
will fund. The Department also coordinates with USAID in identifying the
activities that will align with one of the MEPI pillars. Once an activity is decided,
the Department signs an allocation memo which describes the activity and the
amount of funding and sends a Congressional Notification to Congress for the
15-day notification period. In cases where MEPI funding supplements funding
for a USAID program, USAID generally prepares the Congressional Notification.

The Administration has committed $129 million to MEPI from the fiscal
year 2002 and 2003 Economic Support Funds. The fiscal year 2004 supplemental
appropriations included an additional $89 million for MEPI, of which the
Department of State obligated $60.5 million as of August 2004. Of the $60.5
million, the Middle East Partnership Initiative Office will obligate and manage
$56.7 million and the Department of State’s Bureau of Educational and Cultural
Affairs will obligate and manage the remaining $3.8 million.

Three different management approaches to MEPI-funded activities exist. These
are: 1) activities managed and implemented by the Department of State; 2)
activities that the Department is responsible for managing but in practice are
managed by USAID Missions; and 3) activities that USAID is responsible for
obligating the funds, managing and implementing.

Of the total $129 million in MEPI funding, USAID’s Pillar bureaus and overseas
missions are responsible for administering $86.4 million. The balance of the
funds is the responsibility of the Department of State, Department of Commerce,
and the Department of the Treasury.

USAID awards a significant number of MEPI activities to U.S.-based
organizations, profit and non-profit, audited under the Office of Management and




                                                                                   2
             Budget (OMB) Circular A-133 program1 or by the Defense Contract Audit
             Agency. Furthermore, as of August 2004, USAID is the cognizant agency
             responsible for the audits of the majority of the implementers who are required to
             report annually on Federal awards.



Survey       We conducted this survey to become knowledgeable about the Middle East
Objective    Partnership Initiative (MEPI) and to develop a strategy that will ensure adequate
             audit coverage of USAID-related development activities that are implemented
             under the initiative.


Discussion   USAID is responsible for implementing 71 MEPI activities throughout 14
             countries within the Middle East and North Africa. The dollar amount for each
             individual activity is relatively small, ranging from $40 thousand to $5 million.
             Therefore, we assessed the risk exposure as low at the activity level.

             However, significant challenges exist at the higher program level primarily due to
             the process of how MEPI is programmed and directed through the Department of
             State. We met with representatives from the USAID Asia and Near East Bureau
             and the Department of State Office of Inspector General to gain an understanding
             of the management process and challenges with implementing the program.
             According to these discussions, the following factors present challenges in
             USAID’s ability to manage MEPI activities.

             •   The Department of State’s focus is short term, identifying opportunities on a
                 year by year basis. The Department of State’s strategy is to program a list of
                 activities for implementation.
             •   The Department of State's Bureau of Near Eastern Affairs does not manage by
                 objectives. The individual awards define what is to be accomplished without
                 the existence of an activity design or performance indicators at a strategic
                 level.
             •   In some cases during the early stages of the MEPI program, the Department of
                 State’s Bureau for Near Eastern Affairs was unable to put sufficient time and
                 resources into program planning and, as a result, USAID was faced with
                 challenges when programs were handed to it for implementation.
             •   MEPI activities are relatively small in dollars, however each management unit
                 requires a fixed level of resources to award and manage the activity.
             1
               OMB Circular A-133 further defines and clarifies the financial audit requirements for nonfederal
             entities. The Circular includes audit requirements that exceed the minimum audit requirements set
             forth in the Government Auditing Standards. To fulfill OMB Circular A-133 requirements,
             USAID relies on nonfederal auditors (independent accounting firms) to audit its U.S.-based
             grantees.



                                                                                                             3
                 Consequently, MEPI activities are management intensive. However, the
                 Department of State has not approved funding for operating expenses for
                 USAID’s management of these activities.
             •   The implementing agencies for MEPI activities are predominantly U.S. based
                 non-profit organizations with which USAID has past experience. USAID’s
                 past performance results with these organizations will have an impact on
                 USAID’s ability to manage the activities. Based on USAID’s most recent
                 information, a significant amount of the funding for the activities has not yet
                 been obligated and the implementing partners not yet identified.
             •   USAID representatives both at the mission and at headquarters use manual
                 records to track the status of MEPI activities. No key identifiers exist within
                 the budgetary or accounting data to pull system generated information on
                 MEPI funded activities.
             The bulk of USAID managed activities are awarded through two USAID
             Washington bureaus, and the remaining funds are awarded directly through
             USAID missions. The following table summarizes the allocated MEPI funding
             levels by USAID offices.


                     Table 1 – Allocated MEPI Funding by USAID Offices
                                             FY 02      FY 03        Total
                  Washington Bureaus $13,838,425 $54,966,855 $68,805,280
                  USAID/Lebanon                300,000          -     300,000
                  USAID/Jordan                        - 1,640,000   1,640,000
                  USAID/Morocco              4,903,000  5,515,000 10,418,000
                  USAID/Yemen                2,700,000  2,500,000   5,200,000
                                          $21,741,425 $64,621,855 $86,363,280
                    *Above data has not been audited.

             The two Washington bureaus; Bureau for Democracy, Conflict and Humanitarian
             Assistance and Bureau for Economic Growth, Agriculture and Trade; have
             awarded $49.3 million of the $68.8 million MEPI funding allocated to USAID as
             of August 2004. USAID missions have awarded $17.6 million of the MEPI
             funding. USAID has not programmed the remaining $19.5 million of MEPI
             funding as of August 2004.

             The data collected during this survey forms the basis for the OIG audit strategy in
             fiscal year 2005.



Conclusion   The OIG plans to conduct two performance audits in fiscal year 2005 to
             determine if USAID effectively and efficiently manages the MEPI activities in
             accordance with USAID policies and Department of State requirements. Based
             on the risk exposure at the program level, the OIG plans to conduct one audit at a


                                                                                              4
bureau level and one at the mission level. The OIG will ensure financial audit
coverage of MEPI funds through its ongoing financial audit program.

Performance Audits - From a performance audit perspective, a large volume of
activities exist where the individual dollar value is relatively small and does not
warrant specific audit focus at the activity level. However, based on the number
of challenges underlying the management of the MEPI program, the OIG plans to
design an audit to determine whether selected USAID operating units manage
cumulative activities effectively and efficiently. (Refer to the discussion section
above for information on program challenges).

In fiscal year 2005, the OIG plans to conduct audits of a USAID Washington
bureau responsible for implementing MEPI activities and at USAID/Morocco. In
determining whether USAID is managing these activities efficiently and
effectively the OIG plans to define specific audit procedures to:

•   Review the design and implementation process for the use of MEPI funds and
    the degree of involvement and control that USAID has in developing the
    statements of work and managing the activities.
•   Determine if USAID’s MEPI-funded activities are meeting their objectives.

Financial Audits - From a financial audit perspective, the OIG will coordinate
with USAID’s Office of Acquisition and Assistance to ensure that MEPI funds
awarded to U.S. based non-profit and for-profit organizations are included in the
audits of federal awards. As of August 2004, USAID had not awarded a large
number of awards to local organizations. Therefore, it was premature to identify
specific local recipient audits.

Future funding levels for MEPI are as yet unknown. These unknowns limit
projecting this strategy beyond the current fiscal year. The OIG anticipates
revising this strategy as more concrete information on MEPI becomes available.

To successfully carry out this audit strategy, the OIG will coordinate its efforts
with USAID Washington bureaus, missions, private accounting firms and other
important partners and stakeholders.

•   Coordination with the Asia and Near East Bureau – The OIG will provide
    briefings to the Asia and Near East Bureau on a request basis.
•   Coordination with Congressional Staff – In addition to submitting copies of
    pertinent audit reports, the OIG will provide briefings to interested
    Congressional staff on the progress of its audit program on a request basis.
•   Coordination with Government Accountability Office – The OIG will provide
    the Government Accountability Office with a copy of this strategy, ensure that




                                                                                 5
                    our respective audit programs are complementary, and share important audit
                    results.
                •   Coordination with Defense Contract Audit Agency – The USAID OIG will
                    work with Defense Contract Audit Agency to provide additional audit
                    coverage of the home-office costs of U.S. contractors, as needed.
                •   Coordination with the Department of State– The OIG will coordinate with the
                    Department of State's Bureau of Near Eastern Affairs, Partnership Initiative
                    Office, and the Office of Inspector General to verify information gathered and
                    to coordinate audit issues as needed.




                Asia Near East Bureau officials from the Middle East Affairs Office provided
Evaluation of   comments to the draft report. RIG/Cairo considered the comments within the
Management      final report.
Comments




                                                                                                6
                                                                                            Appendix I

Management
Comments



MEMORANDUM


DATE:         September 13, 2004

TO:           David Pritchard, Regional Inspector General/Cairo

FROM:         David McCloud, Director, Office of Middle East Affairs /s/

SUBJECT:      Draft Memorandum on USAID/OIG’s Survey of USAID’s Activities Funded under the
              Middle East Partnership Initiative (MEPI)
              (Report No. 6-263-04-00x-S)

The Middle East Affairs Office of the Asia Near East Bureau appreciates the opportunity to comment on
the OIG’s FY05 audit strategy for USAID’s activities funded by MEPI. The following are MEA’s
remarks on the draft survey report:

   •   We believe it is important for the report to note the three different management approaches to
       MEPI-funded activities. These are: 1) activities managed and implemented by State; 2) activities
       that State is responsible for managing but in reality are managed by USAID Missions; and 3)
       activities that USAID is responsible for obligating the funds, managing and implementing the
       programs.

   •   Most of the Congressional Notifications (CNs) for MEPI are prepared by the State Department.
       In cases where MEPI funding is supplementing funding for a USAID program, USAID generally
       prepares the CN.

   •   The allocation memo for the FY 04 funds was signed on August 4, 2004. A copy was faxed to
       OIG on September 8, 2004.

   •   To more accurately reflect MEPI program design and implementation practice which generally
       varies depending on the pillar, we believe the third challenge on page 3, should be modified to
       read as follows:




                                                                                                         7
“In some cases during the early stages of the MEPI program, the Department of State’s Bureau for
Near East Affairs was unable to put sufficient time and resources to program planning and as a result
USAID was faced with challenges when programs were handed to it for implementation.”
•   Challenge number 5 is unclear and may require more elaboration.

•   We recommend that the third procedure included in the Section on Performance Audits be
    amended to read as follows:
“Determine if USAID’s MEPI-funded activities are meeting the objectives of the MEPI program.”




                                                                                                   8
